A U D I T           M E M O R A N D U M                        N O .         1 3

To:       Jim McConnell
           Mike Bartell

From:     Walter Stachnik

Date:     May 27, 1999

Re:       Help Desk

We conducted a limited review of the effectiveness of the help desk contractor (BTG,
Inc.). We interviewed certain users and Office of Information Technology (OIT) staff,
and examined selected contract documentation.

In 1997, OIT awarded a task order contract to BTG Inc. for help desk and information
technology support. BTG proposed a total cost of $10.79 million for the base year and
four option years. OIT contracted out these functions as part of its recent
reorganization. The contract includes several performance measures but lacks
incentives to achieve the performance objectives and a mechanism to assess the work
performed against the measures.

Most of the Commission staff we spoke with were dissatisfied with the contractor’s
response times and apparent problems in promptly resolving computer problems. We
learned that contractor staff turnover and friction with certain OIT staff in 1997 during
the transfer of information technology support functions to the Contractor contributed to
these difficulties.

OIT recognized the need to improve the contractor’s service. It raised the following
issues with BTG: network administration; follow-up on open work tickets; skill sets of
contractor staff; customer satisfaction; backlogs of open work tickets; and data
communications. In September, 1998, OIT gave the contractor 60 days to make
improvements. In response, BTG developed a performance improvement plan,
changed project managers, and assigned additional staff to the contract. OIT has also
recently begun a detailed review of the help desk and is implementing new procedures
to improve help desk operations (see attached OIT comments).

Since the contract was awarded, contract costs increased. Fiscal year 1998 costs
exceeded the proposed amount of $2.3 million to $2.8 million, a 24% increase. 1999
costs are projected to exceed the proposed cost of $2.4 million by 40%.

Our recommendations to further improve help desk service include: incorporating
financial incentives and a performance monitoring mechanism into the task order;
                                                                                 Page 2


tracking the initial call resolution rate and using incentives to ensure performance;
holding the contractor accountable for providing end users with information on call
status and problem resolution; allowing liaisons in the field offices some capability to
troubleshoot Windows NT; and using data from the help desk tracking system more
effectively. The Office of Information Technology generally concurred with our results
and is already addressing these issues.

PERFORMANCE- BASED CONTRACTING TECHNIQUES

The Office of Federal Procurement Policy (OFPP), in Letter 91-2, encourages the use of
performance-based contracting methods. Performance-based contracting helps to
ensure that performance meets appropriate quality levels, and that payment is made
only for services that meet these quality levels. According to the OFPP, computer
maintenance services (like the help desk contract) have been “successfully, frequently,
and historically” acquired by agencies using performance-based methods.

In a performance-based contract, the agency and contractor agree on objective,
quantifiable measures of performance, including allowable variation ranges. The
agency then links financial incentives and disincentives to these measures, and
develops a mechanism for comparing the work performed by the contractor to the
performance standard. The current task order includes some performance standards,
such as the response times by priority. However, OIT contract administration staff
indicated that the contractor did not always meet these standards, and was not
penalized. The task order needs a mechanism for assuring that these standards are
met.

The performance-based contract helps control contract costs because the Commission
pays only for services that meet the performance standards. A quality assurance
mechanism is necessary to ensure that reported performance is accurate. The Federal
Acquisition Regulation (FAR), Subpart 37.6, also provides guidance in developing
performance-based contracts.

Recommendation A
The Office of Information Technology should incorporate incentives/disincentives and a
mechanism to assess the contractor’s performance against performance standards in
the help desk contract.

The Office of Information Technology is analyzing the help desk operations to determine
how well actual performance meets the standards and how incentives/disincentives may
be used to improve the contractor’s performance.

INITIAL TELEPHONE CALLS

Commission staff we spoke with generally indicated that they often could not get their
computer problems resolved during their initial call to the help desk. Instead, they
received a work ticket number and waited hours, or sometimes days, for a return call or
                                                                                  Page 3


visit from a technician. This may waste Commission staff time, and may also create
disruptions for the members of the public served by the Commission staff.

The task order requires that the contractor resolve problems during the initial call
whenever possible (at least 60% of calls for software support). Performance in this area
affects customer satisfaction with the contractor’s service. Currently, this requirement is
not being enforced because OIT does not track data on initial call resolution rates and
the task order does not include incentives/disincentives for the contractor to meet the
standard.


Recommendation B
The Office of Information Technology should track the initial call resolution rates and
use incentives to ensure that the contractor meets the standard.

The Office of Information Technology is implementing a number of new procedures,
including: improving management reports on calls; reviewing outstanding calls daily;
implementing a quality assurance mechanism; and improving procedures for assigning
work tickets assigned to Office of Information Technology staff.

STATUS AND RESOLUTION OF CALLS

The contractor is required to provide a copy of each work ticket to the user. The work
ticket indicates the status of the call and describes how the problem was resolved. The
task order stated that keeping end users informed of the status of their open calls was a
“critical requirement” for help desk employees.

The ADP liaisons we interviewed indicated that the contractor is not consistently
providing work tickets to them when they call as users. One liaison said she could not
answer questions from her staff on the status of corrective actions. Another indicated
that information on how a particular problem was solved might help liaisons solve future
similar problems themselves, avoiding additional calls to the help desk.

Recommendation C
The Office of Information Technology should hold the help desk contractor accountable
for keeping end users informed on the status of their calls and provide the completed
work tickets to users.

The Office of Information Technology plans to independently verify the status of calls
and ensure that the contractor adheres to standard operating procedures.

WINDOWS NT TROUBLESHOOTING

Field office ADP liaisons indicated that they are not allowed to troubleshoot the recently
installed Microsoft Windows NT system. They indicated that they cannot access certain
                                                                                                   Page 4


screens in Windows NT to make adjustments, and they do not have copies of the NT
software to reinstall the system if it crashes. As a result, computers with NT problems
are often idle until a sub-contractor1 can resolve the problem.

We realize that implementation of Windows NT has been made a contractor
responsibility to improve control over the network servers. Also, for security purposes,
OIT has restricted Commission-wide network administrator rights. We agree that OIT
should restrict Commission-wide administrator rights to the network. However, allowing
some local troubleshooting capability to the ADP liaisons could save time and money,
while still maintaining adequate control over the network servers. Giving the liaisons
some Windows NT capability may also enhance cooperation between the liaisons and
the sub-contractor in improving network administration and maintenance.

Recommendation D
The Office of Information Technology should review the appropriate aspects of
Windows NT troubleshooting to delegate to the field ADP liaisons, and provide any
necessary training and software.

The Office of Information Technology is working with the ADP liaisons and the
contractor to further clarify and document the responsibilities of the liaisons for
enterprise and local network administration and troubleshooting. It discusses Windows
NT features with the liaisons, recommends NT related training, and provides the liaisons
with relevant materials.

AUTOMATED HELP DESK SYSTEM DATA

The contractor’s call tracking system identifies the problem hardware or software, its
location, and the actions taken to resolve the problem. The task order requires periodic
reports from the tracking system, including information on open, closed, and pending
calls by priority. The Commission could perform further analyses of this data to identify
maintenance trends and systemic problems, (e.g., hardware and software causing the
most frequent service disruptions, problems that took the most or least time to resolve,
problems solved most frequently during the initial call, or the timing and location of
recurring problems). This information could help OIT more effectively deploy its ADP
maintenance resources.

Recommendation E
The Office of Information Technology should analyze data from the call tracking system
to identify systemic issues.

The Office of Information Technology is working with the contractor to implement an
updated version of the help desk software for more effective call trend analysis.

Attachment
1
    In the field offices, the help desk function is carried out by sub-contractors to BTG, Inc..
                          Page 5



cc:   Diane Campbell
      Darlene Pryor
      Melvin Kince
      Leanne Vaeth
      Derek Scarbrough
      Stephanie Poole
      Jonathan Karp
      Jennifer Scardino
      Michael Burnett
